<html>
<title> - PROMOTING AND IMPROVING CHILDREN'S HEALTH PROTECTIONS</title>
<body><pre>[Senate Hearing 111-1213]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1213

                        PROMOTING AND IMPROVING
                     CHILDREN'S HEALTH PROTECTIONS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CHILDREN'S HEALTH

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://www.gpo.gov/fdsys

 
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-886 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 
 
 










               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                   Subcommittee on Children's Health

                   AMY KLOBUCHAR, Minnesota, Chairman
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 DAVID VITTER, Louisiana
ARLEN SPECTER, Pennsylvania          JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 29, 2009
                           OPENING STATEMENTS

Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     1
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     4
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........     5
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    98

                               WITNESSES

Grevatt, Peter, Director, Office of Children's Health Protection 
  and Environmental Education, U.S. Environmental Protection 
  Agency.........................................................     6
    Prepared statement...........................................     9
    Responses to additional questions from Senator Inhofe........    25
Birnbaum, Linda, Director, National Institute of Environmental 
  Health Sciences and the National Toxicology Program............    29
    Prepared statement...........................................    31
    Response to an additional question from Senator Inhofe.......    48
Story, Mary, Professor, Division of Epidemiology and Community 
  Health, University of Minnesota................................    57
    Prepared statement...........................................    59
    Response to an additional question from Senator Inhofe.......    66
Ewing, Reid, Professor, Department of City and Metropolitan 
  Planning, University of Utah...................................    67
    Prepared statement...........................................    69
    Response to an additional question from Senator Inhofe.......    91
 
         PROMOTING AND IMPROVING CHILDREN'S HEALTH PROTECTIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 2009

                               U.S. Senate,
         Committee on Environment and Public Works,
                         Subcommittee on Children's Health,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:33 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Amy Klobuchar 
(chairman of the subcommittee) presiding.
    Present: Senators Klobuchar, Alexander, and Merkley.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. We will call the hearing to order for 
the Children's Environmental Health Subcommittee. I am pleased 
to be here today with our Ranking Member, Senator Alexander 
from Tennessee.
    We have two panels with only two people each, so it won't 
be too lengthy, I hope, and we have some really important 
issues to cover. So I am going to give an opening statement, 
and then I think Senator Alexander will say a few words as 
well, and then we will hear from each of you.
    I would like to extend a special welcome, first of all, to 
Dr. Mary Story, who is going to be on the second panel, who is 
back there, who is a professor at the University of Minnesota. 
We have worked together before, and she is the Director of the 
Robert Wood Johnson Foundation's Healthy Eating Research 
Program.
    I have worked with Dr. Story many times and always 
appreciate her insight on the important issue of childhood 
obesity. Mary is incredibly dedicated to the health of children 
and truly understands how important it is to promote healthy 
lifestyles and environment for our kids.
    We all have a stake in making sure that our children grow 
up happy and healthy. This is important not only for the well-
being of our children, but for the well-being of our country. 
We need a strong, healthy work force in the future to keep our 
economy competitive, and we also want to have these kids have 
great lives. And increasingly, we are seeing major challenges 
and problems for the health of our children. And that is why 
this is the first hearing, but I am sure we are going to have 
more in the future.
    I know personally that parents have an increasingly 
difficult job in today's world. As I left this morning at 6:45 
a.m., I was yelling up to my 14-year-old, your lunch bag is on 
the door. Don't forget it. The economic pressures, the time 
demands, the many outside influences that affect our kids, all 
of these and more make it an especially challenging time for 
America's families.
    Today, I want to highlight some of the health issues facing 
our kids as a result of their external environments. As we 
consider landmark healthcare legislation in Congress, it is 
essential that we ensure that the health of our children is a 
part of any reform.
    You know, when you are a mom of a 14-year-old and you walk 
into a middle school cafeteria, you get a sense first-hand of 
some of the issues confronting kids and confronting parents. 
When you walk in there sometimes, and she's been at a few 
different public schools, so I have seen the different scenes 
that they encounter, but on one side you will have French fries 
and on one side you will have green beans. Now, if you are a 
12-year-old kid, which one do you think you are going to pick?
    That is why I am such a strong supporter, as a member of 
the Agriculture Committee of the updated standards that we have 
in the children's nutrition bill for our schools that looks at 
the schools as a whole, and not just as one set of food versus 
the a la carte food versus the vending machines.
    When we talk about how to combat obesity, asthma or 
diabetes, we must consider the environment that kids are in. 
That means the environment when they walk into that cafeteria 
line, and it means the environment where they walk to school or 
they take the bus, or they can go bike riding in the afternoon, 
or they have no place to bike ride. This is a large part of the 
issue that we are facing. We are talking about the 
neighborhoods, the roads, the buildings, the food sources and 
the recreation facilities where people live, play and work. 
This environment influences many of the decisions that kids and 
families make that are really with them for a lifetime.
    I am interested in hearing from our experts about how we 
can proactively work to keep our children's environment healthy 
and safe. One of the biggest challenges we face is making sure 
young people are eating right and staying active. We all know 
about the growing obesity problem with kids. According to the 
Center for Disease Control, one out of every three children in 
the U.S. between the ages of 2 and 19 is overweight, and nearly 
a quarter of all kids between the ages of 2 and 5 are obese or 
overweight.
    So in other words, a quarter of the kids come into our 
schools overweight and then when they graduate from high 
school, about a third of them are overweight.
    When I was in school, recess and physical education 
classes, a time for kids to run around and play games, it was 
an important part of our day. I remember the President's 
physical fitness test. And while I never did that well on it, I 
had the second to the worst softball throw in 4th grade.
    Senator Alexander, Gretchen Johnson had the worst. I don't 
want to call her out today at this public hearing.
    But the point of it is it instilled in me a respect for 
exercise that led to me taking long distance bike trips with my 
dad and really having that be a part of my life.
    Unfortunately, poor nutrition and a lack of exercise means 
kids have a greater chance of getting diseases like Type 2 
diabetes, heart disease and hypertension. Obesity also has an 
adverse impact on a child's academic and social performances. 
These consequences often last a lifetime, as obese youth are 
statistically more likely to be obese as adolescents and then 
as adults.
    In addition to hurting our kids' health, obesity also hurts 
our economy. According to a recent study, the hospital cost of 
treating children for obesity-related conditions rose from $35 
million during the years 1979 to 1981 to $127 million from 1997 
to 1999. And since obese kids are more likely to be obese 
adults, the costs do not stop at childhood. Nationally, we 
spend between $51 billion and $78 billion on healthcare related 
to overweight adults. That is nearly 9 percent of all 
healthcare spending in the United States.
    So what can we do to get our kids to exercise and eat 
healthy foods? Well, first we need to focus on prevention and 
ensure that kids have access to safe places to play and healthy 
foods. And that starts in our neighborhoods and our schools, 
and it starts in our homes. Studies have shown people living in 
more walkable communities have a reduced risk of obesity, and 
children with easy access to recreational facilities and 
playgrounds are more active than those with limited access.
    Programs like EPA's Smart Growth America are working to 
build more pedestrian friendly communities and combat the 
prevalence of obesity. We are also working in the Agriculture 
Committee to increase, as I mentioned, nutrition standards for 
all food sold in schools.
    Another issue where we have more work to do is asthma. 
Nearly 9 million children in the United States have asthma, and 
it is the leading serious chronic illness among our children. 
Outdoor air pollution worsens existing asthma. Outdoor 
pollutants known to trigger asthma attacks include ozone, 
particulate matter, nitrogen dioxide and sulfur dioxide. 
Children are already at greater risk from outdoor air pollution 
than healthy adults, since kids have smaller airways than 
adults, which are blocked easier, causing kids to breathe more 
rapidly.
    Since children are less likely to acknowledge breathing 
difficulties that result from pollution and limit their 
exposure, asthma and the influence of environment are 
especially significant for kids.
    When I entered the Senate, I fought to make our kids safer 
and healthier. I worked to get toxic toys off our shelves. We 
had a major consumer products bill which I think the Wall 
Street Journal called the most sweeping consumer legislation in 
16 years. Senator Pryor and I and others on the Commerce 
Committee worked very hard to get the legislation passed.
    The other and last topic I wanted to mention was the issue 
of formaldehyde. As you know, formaldehyde is used in many 
products as an adhesive or bonding agent for composite wood 
products. At room temperature, formaldehyde releases an 
invisible gas into the air.
    Now, we know that formaldehyde in small concentrations is a 
normal part of our environment. It is in wood furniture that 
you probably have at home. However, the problem is exposure to 
formaldehyde gas in higher concentrations, especially over a 
prolonged period, if inhaled can cause nausea, asthma and other 
serious health problems. We know because kids are smaller and 
have fewer pounds, this is exacerbated when it comes to 
children.
    Most seriously, formaldehyde is listed as a probable human 
carcinogen by the U.S. Environmental Protection Agency. 
Estimates by the State of California suggest that daily 
prolonged exposure to formaldehyde may contribute to tens of 
thousands of cancer cases in the U.S. each year.
    In recent years, there has been a growing concern about 
formaldehyde in composite wood products imported from other 
countries. In the U.S., our timber industry has come up with 
voluntary standards that they are meeting. This is a problem 
with foreign wood that is coming in, composite wood and others 
that is coming into our country. That is why Senator Crapo and 
I have introduced bipartisan legislation that would establish 
national standards for formaldehyde emissions in new composite 
wood products, and I am interested in the effect this chemical 
and others have on our kids. We are excited about this 
legislation. We have the support of environmental groups, 
consumer groups, as well as the timber industry.
    I look forward to hearing from our panelists about these 
issues and other environmental health issues that are affecting 
our kids. They are the most vulnerable among us, and it is our 
responsibility to protect them and help them to grow up 
healthy.
    With that, I would like to turn it over to Senator 
Alexander, co-chair of this committee.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Amy.
    I want to congratulate Senator Klobuchar for conceiving of 
this hearing and hosting it, and I look forward to hearing what 
the witnesses have to say.
    I have another hearing at 10:30 a.m., but I will be here 
for the next hour.
    One of the most remarkable statements that I have heard in 
the last few years is the statement by distinguished journals 
such as the New England Journal of Medicine or the Institute of 
Medicine, the Trust for America's Health, others, who say 
today's children are likely to be the first generation to live 
shorter, less healthy lives than their parents. That is enough 
to cause you to stand up and stop and say, this is a country 
that is always getting better and better; that doesn't sound 
like the United States of America.
    And one reason for that, of course, is the growing number 
of adult diseases that we see in children. Pediatricians tell 
me, I had a hearing at Maharry University last October and they 
talked about how many of these adult diseases, especially Type 
2 diabetes, sometimes heart disease, other chronic illnesses 
the pediatricians are seeing in young children and the terrible 
consequences of a lifetime of those diseases is for them. And 
much of that comes from obesity, which is a function of diet 
and exercise.
    So we know the problem, and we see the specific results, 
and we know what causes it. So I think part of our job here is 
to listen to the experts who can tell us not what comprehensive 
thing can we do, because we don't do comprehensive very well 
here. Our country is too big and too complicated, and we like 
our freedom too much, but there are bound to be some important 
steps we can take in the right direction to deal with that part 
of the health problem.
    And the other one that Senator Klobuchar mentioned has to 
do with clean air. One of the first pieces of legislation I 
introduced here when I became a Senator, and I did it with 
Senator Carper 6 years ago, was tough standards for sulfur, 
nitrogen and mercury. And that has been complicated some by the 
court decision that has knocked out the rule for sulfur and 
nitrogen, but I am looking forward to hearing testimony about 
what standards for sulfur and nitrogen and mercury we need.
    We talk a lot about carbon around here, and I believe 
carbon is a problem, and we need to deal with it, but we know 
what to do about sulfur, nitrogen and mercury. We have the 
technology to get it out of the smokestacks, and my view is we 
ought to go ahead and do it.
    I know that in Tennessee, the estimates are we have a 
million children, which is most of our children, who are at 
risk for asthma. According to the American Lung Association, 
there are a half-million people who have asthma. Chattanooga, 
Memphis and Knoxville have specific air pollution problems. And 
that not only affects our health, but it affects our ability to 
attract the Volkswagens of the world and their suppliers 
because they can't come if we don't meet our air quality 
standards.
    So I am interested in both those issues that the Chairman 
has mentioned, one being practical steps toward obesity; and 
two being practical steps to go ahead and clean up the air of 
sulfur, nitrogen and mercury so that we have healthier 
children.
    I look forward to the testimony. Thank you.
    Senator Klobuchar. Thank you very much, Senator Alexander, 
and thanks for your leadership in this area.
    Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Madam Chair.
    I simply associate myself with the comments of the 
distinguished Chair and the Republican leader and hope that we 
can get right to the testimony.
    Senator Klobuchar. OK. You see, people can work together in 
Washington.
    Right, Lamar?
    Senator Alexander. Right.
    Senator Klobuchar. Exactly.
    Here we go. I am going to introduce this panel first and 
then have each speak for 5 minutes.
    The first, Dr. Peter Grevatt. Dr. Grevatt is both the 
Director for the EPA's Office of Children's Health Protection 
and Environmental Education and the Senior Adviser on 
Children's Environmental Health for EPA Administrator Lisa 
Jackson. Dr. Grevatt assists the EPA with his experience in 
risk assessment for critical public health issues. He has 
worked with members from local, State and national government 
and formerly in the EPA's Office of Solid Waste as its Senior 
Science Adviser and Director of its Economics Methods and Risk 
Analysis Division.
    Linda Birnbaum is the Director of the National Institute of 
Environmental Health Sciences and the National Toxicology 
Program. Having spent the previous 16 years--Dr. Birnbaum 
served as the EPA's Senior Adviser on Experimental Toxicology. 
She has been a Federal scientist for almost 29 years and has 
received many awards for her work as a toxicologist and her 
leadership in the field. She has authored over 600 peer 
reviewed publications and reports and is an Adjunct Professor 
of her field at both UNC Chapel Hill and Duke University.
    Thank you very much. We look forward to hearing from both 
of you.
    Dr. Grevatt.

  STATEMENT OF PETER GREVATT, DIRECTOR, OFFICE OF CHILDREN'S 
      HEALTH PROTECTION AND ENVIRONMENTAL EDUCATION, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Grevatt. Good morning, Madam Chair, and thank you and 
members of the subcommittee.
    My name is Peter Grevatt, and I am the Director of the 
Office of Children's Health Protection and Environmental 
Education at the Environmental Protection Agency. And thank you 
for the opportunity to appear before the subcommittee to 
discuss EPA's efforts to promote and improve children's health.
    As a parent of two school age children myself, I share with 
everyone here a vital interest in protecting our children in 
every way possible.
    This hearing is a very important event for EPA. Ensuring 
that our children live, learn and grow in a safe environment is 
central to the Agency's work. Administrator Jackson has 
established three broad principles to guide EPA's work. The 
first is that science must be the determining factor in EPA 
decisionmaking. The second is adherence to the rule of law. And 
the third is that we must operate in transparency.
    EPA's children's health activities are guided by these 
principles, as reflected in several recent actions, including 
the release for public comment of the reanalysis of data on 
perchlorate for regulatory determination, EPA's commitment to 
reconsidering the 2008 national ozone standard, and a recent 
unprecedented air toxics monitoring effort near schools.
    Children's rapid development makes them vulnerable to 
toxicants during pregnancy and childhood. Children have a 
greater exposure to chemicals through behaviors such as 
crawling, putting objects in their mouths, and eating non-food 
items, and early life exposures can have serious consequences 
throughout a child's life.
    Our work at EPA extends beyond protecting the natural 
environment. Our focus is not just on how human activities 
affect the environment. It is also about how the environment 
that we've created in our communities can affect our health and 
well-being.
    Children's health issues touch almost every aspect of EPA's 
work, and we have recently established a five-part strategy to 
ensure protection of children's environmental health. First, 
EPA will work to ensure that our regulations provide for 
protection of children. Already we have decided to reconsider 
the 2008 national smog standards to ensure that they are 
scientifically sound and protective of human health. Smog, 
which is known as ground level ozone, has been linked to asthma 
and other respiratory illnesses in children.
    In addition, EPA will work to address the continuing 
disparity in exposures and health effects for some of America's 
children. For example, almost three times as many African 
American children have elevated blood lead levels compared to 
Caucasian children. Between 2004 and 2007, African American and 
Puerto Rican children, regardless of family income, reported 
higher levels of asthma.
    EPA will work to improve the environment in public health 
for all of America's children.
    Second, we will work to ensure safe chemicals management. 
TSCA, this country's chemical management legislation, was 
originally enacted in 1976 and is the only major environmental 
statute that has not been reauthorized. The TSCA inventory 
currently contains over 80,000 existing chemicals, few of which 
have been studied for their risks to children. It has proven 
difficult in some cases to take action to limit or ban 
chemicals found to cause unreasonable risks to human health or 
the environment, and there is a growing willingness in the 
U.S., including among industry, to work on efforts to reform 
TSCA.
    And it is clear that the time has come to bring TSCA into 
the 21st century, and we are very hopeful that Congress will 
act to update TSCA so that we are better able to take action on 
chemicals that pose a concern, particularly chemicals that pose 
a concern for children.
    Third, we will work with Federal, State, tribal and local 
public health agencies to design and implement community-based 
children's health programs. The Administrator and I understand 
the importance of interagency collaboration on children's 
environmental health issues, and we will reestablish a pivotal 
and influential role for EPA with other Federal departments and 
agencies addressing children's environmental health.
    For example, we are currently working with a variety of 
Federal agencies and a diverse group of stakeholders to provide 
communities with the information and support they need to 
address children's environmental health issues in homes and 
schools and other environments where children spend much of 
their time.
    Fourth, we will support research to better understand 
children's environmental health issues. The Children's 
Environmental Health Research Centers established in 1998 by 
NIEHS and EPA examine the interactions between key 
environmental exposures and a range of children's health 
outcomes, including growth and development, asthma, and 
neurodevelopmental disorders such as autism. Research results 
from the Children's Centers have led to novel findings 
associated with disease in children.
    EPA is also a national collaborator in the National 
Children's Study, the largest ever study of children's health 
in the U.S., which will contribute to a better understanding of 
the role of environmental factors in health and disease.
    Fifth, EPA will measure the effectiveness of our actions. 
Currently, EPA is developing appropriate indicators of its 
efforts in protecting children's health. As an agency, we will 
enhance our ability to report on progress in protecting 
children's environmental health going forward.
    I would like to thank you, Chairman Klobuchar and members 
of the subcommittee for the opportunity to talk to you today. 
Administrator Jackson and I share your commitment to children's 
environmental health, and we appreciate your ongoing interest 
in our efforts, and I look forward to answering any questions 
that you may have.
    [The prepared statement of Mr. Grevatt follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Klobuchar. Thank you very much.
    Dr. Birnbaum.

 STATEMENT OF LINDA BIRNBAUM, DIRECTOR, NATIONAL INSTITUTE OF 
   ENVIRONMENTAL HEALTH SCIENCES AND THE NATIONAL TOXICOLOGY 
                            PROGRAM

    Ms. Birnbaum. Madam Chairwoman, distinguished subcommittee 
members, I am pleased to be here to present testimony on 
research supported by the Department of Health and Human 
Services. My name is Linda Birnbaum, and I am the Director of 
the National Institute of Environmental Health Sciences and 
Director of the National Toxicology Program within the 
Department.
    As a public servant, scientist, mother and grandmother, I 
am convinced that a healthy environment is vitally important to 
a child's development and a child's health for his or her 
entire life. NIEHS has long recognized the critically important 
need for research on children's environmental health. We have 
spent more than $106 million on children's environmental health 
research this year. I would like to share with you some of our 
recent findings.
    A scientist with the University of Southern California, 
supported by NIEHS, found that maternal smoking during 
pregnancy leads to permanent changes in the way a child's genes 
work without changing the genes themselves. We now understand 
that prenatal exposure to tobacco smoke is associated with a 
number of health problems later in life including childhood 
obesity, respiratory disease, and cancer.
    USC researchers also found that new cases of asthma 
increased among children who exercise outdoors in communities 
where ozone levels are high, but not in areas where ozone is 
low.
    Cognitive development of children is especially vulnerable 
to environmental effects. Recently, Columbia University 
scientists reported that a mother's exposure to an urban air 
pollutant known as polycyclic aromatic hydrocarbons, or PAHs, 
adversely affects the child's IQ. Children exposed to high 
levels of PAHs had IQ scores that were 4 points lower than 
those of less exposed children. Such a significant decrease 
impacts success in school.
    Other Columbia researchers, working with children in 
Bangladesh, found that arsenic levels in drinking water were 
associated with decreases in IQ. These levels of arsenic are 
found in well water in some areas of the United States.
    With regard to lead poisoning, NIEHS scientists studied the 
effect of chelation as a treatment of mild to moderate lead 
poisoning. Our research found that once lead is elevated in a 
child's blood, subsequent chelation treatment cannot restore 
lost IQ. This result supports the need for prevention.
    The Superfund legislation directed NIEHS to fund research 
on the health effects of chemicals at Superfund sites and on 
technologies to clean them up. Building schools on former 
industrial properties is a common practice nationwide that can 
expose children to toxicants assumed to be contained below 
ground. Researchers in Brown University's Superfund Research 
Program are developing models that assess the fate and 
transport of these hazardous substances to the surface. They 
are working with communities to improve school placement, thus 
empowering regulators and community groups with tools to 
prevent exposure among children.
    With funding from the NIEHS Superfund Program, Harvard 
University is working in Tar Creek, Oklahoma, with the local 
health center, community groups and the county health 
department in establishing a birth cohort and asking questions 
that are directly relevant to this community. For example, how 
does metal waste change in the environment, making exposure 
more or less likely? And are exposed children affected by these 
metals?
    The scientists are helping those responsible for clean up 
and educating residents in ways to reduce exposures.
    Dr. Grevatt mentioned the NIEHS-EPA Children's Centers, 
which not only support multidisciplinary research grants, but 
are adding formative centers to foster new research. The 
Children's Centers are expanding their initial focus on asthma, 
pesticides, and neurobehavioral disorders into birth defects, 
childhood cancer, diabetes, pubertal development and the 
relationship of fetal exposure and adult disease.
    Our Breast Cancer and Environment Research Centers 
investigate the impact of prenatal and childhood exposures on 
breast development and the altered risk of adult breast cancer. 
A primary focus of this study is on endocrine disruptors and 
personal care or household products.
    The National Toxicology Program is supporting animal 
studies to investigate the effects of some of these compounds. 
Studies have been completed and are underway on estrogenic 
compounds, including genistine found in soy products and 
bisphenol A. A wide variety of herbal supplements, chemicals 
used in everyday products, and even radiation from cell phones 
are being investigated in multiple generations of animals. 
These studies are critical in linking environmental exposures 
during pregnancy and childhood with a variety of health effects 
not only on growth and development, but also on late life 
diseases such as Parkinson's and cancer.
    The National Children's Study is another major project of 
importance to children's health. NIEHS and EPA are the two lead 
agencies, and our scientists have been integral in its 
planning. The CDC provides essential support through its 
analyses of blood, breast milk and urine for more than 100 
chemicals. Enrollment efforts are now underway at seven 
locations.
    The National Children's Study is an unprecedented 
opportunity to answer difficult questions about many of the 
diseases and exposures I have mentioned.
    These are only a few examples of the critically important 
research being funded by the NIEHS and the NTP and a short 
description of the impact this research will have on the health 
of our children.
    And I am happy to answer any questions.
    [The prepared statement of Ms. Birnbaum follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    
    
    Senator Klobuchar. Thank you very much.
    We will start with Senator Alexander.
    Senator Alexander. Thanks, Madam Chairman.
    Thank you for the testimony.
    Dr. Grevatt, you talked about environmental triggers. Can 
you expand on what you mean by environmental triggers?
    Mr. Grevatt. Environmental triggers of disease. I mean, it 
is well understood that many of the diseases that we are 
concerned about in kids have multiple factors that contribute 
to them, both genetic factors and lifestyle factors, but 
certainly we know in the case of asthma that there are a number 
of triggers, indoor air pollutants and outdoor air pollutants, 
as well as other factors within homes that contribute to asthma 
attacks. And so those are the triggers that I am talking about.
    Senator Alexander. Do you have established research about 
whether sulfur dioxide or nitrogen oxides are environmental 
triggers for children?
    Mr. Grevatt. I believe that both sulfur dioxide and 
nitrogen oxides can contribute to the onset of asthma attacks, 
but less is understood about what causes the disease of asthma 
in the first place, but the triggers that I am referring to is 
what causes the onset of the asthma attacks.
    Senator Alexander. I see. And would you suppose that 
limiting the discharges from power plants of sulfur and 
nitrogen oxide would be beneficial to the health of children 
with asthma?
    Mr. Grevatt. I think it is important to look at all the 
opportunities that we have to protect kids from various 
environmental pollutants, those that you mention and others, 
from a number of sources, yes.
    Senator Alexander. Dr. Birnbaum, Senator Carper and I have 
prepared legislation that would provide strict national limits 
on sulfur, nitrogen and mercury emissions from power plants. 
And we have submitted that to the EPA for its analysis and 
comment and technical advice. Has your office had a chance to 
look at that bill yet?
    Ms. Birnbaum. I am not sure whether we have or not, but we 
have a great deal of research that we are conducting on the 
health effects of all the pollutants you mentioned. And we know 
that all of those pollutants have long lasting effects on 
children's asthma, respiratory health, and intelligence as 
well.
    Senator Alexander. Since this is a piece of legislation 
that we would like to move pretty quickly, could I ask your 
office to take a look at that, and if EPA is still in its 
analysis of the bill or even if it is not, to give us your 
thoughts about how your research connects with the standards 
that we suggest in the bill?
    Ms. Birnbaum. We will be happy to do that.
    Senator Alexander. What have you found out about mercury? 
You know, sulfur and nitrogen, we have been regulating for a 
while, and it blows around the world coming out of power 
plants. But there is some evidence that mercury comes out of 
coal-fired power plants and doesn't blow very far, and so it 
affects adults and children near the power plants.
    Have you done any research on mercury and its effect on 
children, and especially whether it comes from power plants?
    Ms. Birnbaum. We have done a great deal of work looking at 
effects of mercury, and we know that both inorganic mercury, 
which is what comes out of the stack, and the methylmercury, 
which is produced when the mercury lands on, you know, on lakes 
and gets into fish, have severe impacts on neurodevelopment and 
behavior in children. So that is a great concern that we have 
had for many years.
    Senator Alexander. But do you have an opinion, or has your 
research shown whether the mercury that causes the problem 
comes from a nearby source like a power plant within 20 miles? 
Or whether it comes, like sulfur dioxide might, comes from a 
power plant that is hundreds of miles away?
    Ms. Birnbaum. We have not conducted research on the fate 
and transport of mercury. I believe EPA has done quite a bit of 
that.
    Senator Alexander. Those are all my questions at the 
moment, Madam Chairman.
    Senator Klobuchar. Thank you very much, Senator.
    I talked at the beginning of my statement about obesity and 
exercise, and I think I will have more questions for the second 
panel about that. I think we know what the causes of obesity 
are, for the most part, and we know what we need to do to solve 
it. But I would like to focus with both of you on some of the 
issues with some of these diseases that we are hearing a lot 
about with kids, outside of the obesity issue.
    The first that I hear a lot about, besides this obesity 
exercise issue, when it comes to kids is autism. And I just 
wondered, and again people are searching for a cause. They are 
trying to figure if it is environmental or what the issues are. 
And I know it is a very hotly charged issue because so many 
parents understandably are upset about it.
    Could you just talk sort of concretely about what, and I am 
sure NIH is investigating it, but what EPA is doing right now 
in terms of looking at potential environmental causes?
    I am going to start with Dr. Grevatt.
    Mr. Grevatt. Yes, thank you.
    A number of things we are doing to look at environmental 
causes related to autism and other neurodevelopmental 
disorders, including the support that I mentioned that we 
jointly provide for the National Children's Research Centers, 
which are looking at these sorts of key issues, trying to 
understand the role of environmental factors in autism.
    We can be certain that autism is not just a disease that is 
driven completely by environmental factors, but to the extent 
that there are environmental factors that we can control, we 
think it is critical.
    Senator Klobuchar. What are the factors you are looking at 
exactly?
    Mr. Grevatt. Different neurodevelopmental toxicants such as 
mercury, lead, other heavy metals. I think at this point there 
is really a high level of uncertainty about what the specific 
environmental contributors to autism, other neurodevelopmental 
disorders are. ADHD is another issue that many are concerned 
about, as well as the broad set of autism spectrum disorders.
    Senator Klobuchar. Dr. Birnbaum.
    Ms. Birnbaum. We have a great deal of research, and as you 
know, the Interagency Autism Act of 2006 established a cross-
agency effort to coordinate some of the autism research, and we 
participate in that actively. We fund not only some of the 
basic research, which is trying to develop animal models which 
will enhance our ability to test individual pollutants, but 
also we are doing a number of epidemiology studies. We have two 
large ones, one called CHARGE being conducted at the University 
of California at Davis, and the other called EARLI, which is a 
multi-center study. And both of these are looking at the 
multiple environmental impacts that could be associated with 
autism.
    We know that almost all complex diseases have both an 
environmental and a genetic component. So one of the exciting 
things about the EARLI study that just started, and this has 
recruited 1,200 women who already have one child with autism. 
So we know that there is a genetic predisposition for those 
women that a second child might also have autism. And we are 
following that up to understand how the environment can impact 
what happens with subsequent births.
    I did want to mention very briefly that in addition, there 
are many different environmental triggers of obesity that are 
beginning to be understood. So for example, air pollution is 
associated. There is growing information that in areas of high 
air pollution, there is more obesity in children there, a clear 
association.
    Senator Klobuchar. And again, thank you for this answer. If 
I could just finish autism, and then we will move to this.
    Ms. Birnbaum. Sure.
    Senator Klobuchar. I just want to say there is just growing 
frustration that so many parents, including parents I know. And 
I know there is some discussion, well maybe they are just 
identifying it when they didn't identify it before. And I 
really don't think that is true. I think we are starting to see 
increasing numbers, and that makes me think that it is perhaps 
something outside of genetics or something has happened.
    Ms. Birnbaum. We know it is something complicated. We know 
it is not simple. We know that the exposures are occurring 
either in the womb or in the first year or so of life. Children 
are frequently diagnosed with autism between 18 and 24 months, 
so it is some very, very early impact on their 
neurodevelopment.
    Senator Klobuchar. Right. I appreciate your looking into 
this, and I am sure we are going to focus on this more going 
forward.
    But to the obesity issue, and I didn't mean to say there 
weren't environmental factors. That is what this hearing is 
about. I just meant that it seems easier to see some of the 
root causes. But could you elaborate on why you think the air 
pollution connection?
    Ms. Birnbaum. Well, it is not only air pollution. We are 
seeing that a number of early pesticide exposures and then 
exposures to some of the old persistent organic pollutants that 
are out there, that children who are exposed in utero to these 
kinds of pesticides go on later in life, not so late in life 
actually, to begin to be heavy and that this persists.
    There are a series of studies that have been conducted now 
starting after World War II where populations have been 
followed. And what they found is that where there were some 
kind of early life restriction on nutrition, and I am not 
talking about actual malnutrition, but a deficit of certain 
foods, for example, after World War II in Europe. They followed 
those patients or those subjects now for 50 or 60 years, and 
what they find is that those who had some kind of early life 
stressful event such as under-nutrition in fact go on to have a 
higher incidence not only of obesity, but cardiovascular 
disease, diabetes and cancer.
    And in fact, we can now model those kinds of exposures in 
our different animal studies, which provide support for the 
reality of these findings. And the human epidemiology studies 
looking at some of these individual pollutants are beginning to 
support these findings.
    Senator Klobuchar. So you are talking about having some 
under-nourishment in the womb or when a baby is born?
    Ms. Birnbaum. What is very interesting is that when 
children are born, these children are not what you would call 
growth-retarded. They are not so small that previously would 
just have thought, oh, that is a little bit of a little baby. 
But in fact, we are finding that even a 5 percent detriment in 
newborn weight as compared to what they should have been is 
associated with, as they grow, obesity and a plethora of other 
adverse outcomes.
    Senator Klobuchar. Right, and I don't think people always 
think about this. They think, well, if you have a littler baby, 
then, you know, they are going to be little. And in fact, this 
malnourishment and not getting the right nutrients can later 
lead to a higher----
    Ms. Birnbaum. Right, but it is not only malnourishment. I 
think it is very important, you know, we are quick to blame 
obesity on people's lifestyle, eating too much, eating the 
wrong foods, not exercising enough. But this new understanding 
that there may be early developmental insults that can in fact 
predispose you to these things is a very important 
understanding.
    Senator Klobuchar. And may help us to solve some of it.
    OK. Very good.
    Senator Merkley.
    Senator Merkley. Thank you, Madam Chair.
    Thank you for your testimony.
    Dr. Grevatt, in your testimony, you have a reference to the 
Toxic Substances Control Act being the only major environmental 
statute that has not been reauthorized, and that it has 
``proven difficult in some cases to take action to limit or ban 
chemicals found to cause unreasonable risks to human health.''
    Can you give us some examples of those types of situations 
where chemicals have been found to cause unreasonable risk, but 
it has been difficult to take action?
    Mr. Grevatt. Yes, thank you. I think probably the best 
known challenge in terms of TSCA was with the attempted ban on 
asbestos, which ultimately was proved unsuccessful under TSCA. 
And there has been quite a bit that has been accomplished under 
TSCA, so the message here is not so much that we haven't been 
able to accomplish anything in TSCA. There has been quite a 
bit.
    But our belief and the Administrator's belief is that going 
forward in order to safely manage chemicals, we need some 
stronger tools than we have available to us in TSCA today.
    Senator Merkley. Then does that example pretty much stand 
by itself, or are there dozens of examples of that nature, or a 
few more that are significant that you want to mention?
    Mr. Grevatt. I think there are a number of other examples. 
I would be happy to provide you with specifics later, but there 
are a number of other examples where the provisions in TSCA 
make it difficult for EPA to obtain some of the information 
that we need in order to support whatever approach that we 
think is appropriate.
    Senator Merkley. That would be helpful. I will ask you to 
follow up and provide that information. That would be great.
    Mr. Grevatt. Be glad to.
    Senator Merkley. And I wanted to turn, Dr. Birnbaum, to 
lead. And in your testimony, you note that we got it out of 
gasoline, and we removed it from paint, but that it still 
remains a significant issue. Is that primarily due to drinking 
water? And what else can be done?
    Ms. Birnbaum. Well, much lead is coming from older homes 
and older facilities where lead was present, for example, in 
the paint and in other places. So that exposure to lead via 
dust is a major route of childhood exposure. In certain areas, 
there has been lead found in drinking water, and that has been 
due to lead soldering that was used in pipes, and when some of 
the procedures were changed for disinfection of water, it 
changed the pH and more lead leached out of the pipes. But I 
think that the major exposure to childhood lead is largely 
through dust in older buildings and older facilities.
    Senator Merkley. Thank you.
    I want to turn in the time I have to this issue of 
endocrine systems and endocrine disrupters. If one tracks the 
change in the age at which puberty occurs over a significant 
length of time, I don't know if that is decades or 100 years or 
what kind of data we have, has there been a significant shift?
    Ms. Birnbaum. Yes, there has been a dramatic decrease in 
the age of puberty, and a lot of that is probably due to better 
nutrition. Some of it is due to increased obesity, but you 
cannot explain all of the change in puberty from those two 
factors.
    Senator Merkley. Which brings us to the endocrine 
disrupters?
    Ms. Birnbaum. Yes, it would. Many, many chemicals have the 
ability to alter our hormone system. I think it is important to 
understand that the purpose of our hormones is to maintain our 
normal physiology and maintain us on an even keel. And that 
even a slight alteration of some of our hormonal balance, 
especially at a key window which occurs during development, can 
have long lasting consequences.
    Senator Merkley. So in your testimony, there are many, many 
items that are mentioned ranging from a compound found in 
Teflon to epoxy resin, coatings of canned foods, polycarbonate 
tableware, food storage containers, water bottles, baby 
bottles. This list, apart from the Teflon, I think is the role 
of, is it BPA? Can you talk a little bit about this compound, 
and I guess it is softener in plastics, and what kind of 
evidence is mounting that it is a significant issue?
    Ms. Birnbaum. OK, well, I can talk both about the compound 
that is present in Teflon is not BPA.
    Senator Merkley. Right.
    Ms. Birnbaum. That's perfluorooctanoic acid or other 
perfluorinated compounds. But the compound you mentioned in the 
other places you mentioned is BPA. And BPA used to be called a 
weak estrogen, but now we understand that in fact in certain 
circumstances, it can be a very strong estrogen. It is present 
in over 93 percent of the American population based on the CDC 
monitoring of our population. And we find that the way it is 
handled in the body is different in infants than it is in 
adults. And infants have more difficulty eliminating the BPA 
than adults do, for example.
    There have been over 900 peer reviewed studies published on 
the health effects of BPA, and we know that development is a 
critical time for susceptibility to BPA. We know that it is 
associated with long-term changes in the reproductive organs 
and in reproductive behavior, and there are effects on the 
brain development as well that are persistent. And there is 
growing evidence that there are effects on the heart as well.
    And in fact, some of the effects on the cardiovascular 
system, there have been associations reported in adults with 
elevated BPA within the background population, but people 
within the background population who have higher BPA than 
others appear to have an increased risk of heart disease as 
well. So there are many, many different effects that are being 
reported.
    We are currently conducting research on BPA so that this 
past year we have actually had a $31 million program 
specifically trying to look and definitely understand the 
potential health consequences of BPA exposure.
    Senator Merkley. Can I give one question to follow up on 
that?
    Then have you all put out recommendations in terms of 
should parents not use plastic baby bottles, pacifiers? Or is 
there a series of recommendations? Or do you also plan any sort 
of regulatory action?
    Ms. Birnbaum. We are not a regulatory agency. We are a 
research agency, but we have published two large documents. One 
was a consensus statement developed by many of our NIEHS-funded 
researchers that reviewed all of the literature on BPA health 
effects. And 2 years later, the NTP has evaluated all the 
literature related to developmental and reproductive exposures 
to BPA, and the conclusion of that was that there was 
definitely some concern for exposure to BPA for a number of 
different health effects.
    We have been working very closely with our colleagues at 
FDA as they look to make the regulatory decisions about BPA.
    Senator Merkley. Thank you.
    Senator Klobuchar. All right. I just had one last question 
before we go on to our next panel, something I raised in my 
opening statement.
    Dr. Birnbaum, I understand that your institute's National 
Toxicology Program's report on carcinogens will reconsider the 
classification of formaldehyde from its current status of 
``reasonably anticipated to be a human carcinogen'' and are 
considering naming it a carcinogen. As I mentioned, Senator 
Crapo and I just introduced a bill that will phase in new 
national standards for formaldehyde in composite wood products, 
understanding that there are trace levels in products, but 
setting a .01 parts per million standard.
    Can you tell us about some of the benefits of limiting 
formaldehyde exposure for kids?
    Ms. Birnbaum. Well, we know that formaldehyde is extremely 
irritating. We know that it can actually stimulate an asthmatic 
response. And then there is growing evidence that in fact, from 
a number of studies, especially some recent ones that were just 
released from the National Cancer Institute, that formaldehyde 
appears to be associated with an increase in cancer in people 
as well.
    We expect to have an external peer review of all the 
information that we will use to make a listing decision of 
whether it is a known or reasonably anticipated to be 
carcinogen. That peer panel will be held in November.
    Senator Klobuchar. OK. Thank you very much. So it is OK for 
dissecting frogs a few times a year, but possibly harmful in 
prolonged exposure.
    Ms. Birnbaum. Most people who are now doing dissections 
with formaldehyde are doing it under a hood so that the fumes 
are wafted away, and they are not inhaling them.
    Senator Klobuchar. OK. I didn't know that. I was just 
thinking back to my elementary school days.
    [Laughter.]
    Senator Klobuchar. All right. I want to thank both of you.
    Any follow ups?
    Senator Alexander. Well, does that mean we can't take kids 
to the Natural History Museum, because President Teddy 
Roosevelt skinned all the animals and used formaldehyde and put 
them there?
    Ms. Birnbaum. Well, most of the formaldehyde has ether, 
they are either enclosed in glass, or if they are not, that the 
formaldehyde at least that Teddy Roosevelt did has long since 
evaporated from the material.
    Senator Klobuchar. I think what we are talking about here 
are some of the trailers in Katrina and some of the other 
concerns from in wood products in homes and this long-term 
exposure.
    Ms. Birnbaum. And I think that is a valid concern.
    Senator Klobuchar. OK. Thank you very much. Thank you, both 
of you. It was very enlightening. We look forward to having you 
back again.
    We will bring up our second panel.
    OK, very good. Welcome to our second panel. I already 
mentioned Dr. Mary Story from the University of Minnesota. She 
is a Professor with the School of Public Health and an Adjunct 
Professor at the U of M's Department of Pediatrics. She is also 
Director of the Robert Wood Johnson Foundation's Healthy Eating 
Research Program. Her expertise lies in studying childhood 
obesity and eating habits.
    Dr. Story is widely published on the topic of childhood 
nutrition and obesity and is on the editorial board for the 
Journal of the American Dietetic Association.
    Also with us, Dr. Reid Ewing is a prolific writer and 
researcher on the topic of urban planning and development. At 
the moment, he is also the Associate Editor of the Journal of 
the American Planning Association and a columnist for Planning 
Magazine.
    The doctor has been directly involved in politics as well, 
having served two terms in the Arizona State Legislature and 
working in the Congressional Budget Office on urban policy. He 
received his master's degree and Ph.D. in city urban planning 
from Harvard University and MIT respectively. Right now, he is 
a Professor with the University of Utah's Department of City 
and Metropolitan Planning.
    Thank you both. We look forward to hearing from you for 5 
minutes each, and then we will have questions.
    Dr. Story.

 STATEMENT OF MARY STORY, PROFESSOR, DIVISION OF EPIDEMIOLOGY 
         AND COMMUNITY HEALTH, UNIVERSITY OF MINNESOTA

    Ms. Story. Madam Chair, members of the subcommittee, thank 
you for the nice introduction and for inviting me to testify, 
and asking me to address one of the most important health 
threats facing our children today, obesity.
    You mentioned that nearly one in three children and 
adolescents in this country are overweight or obese. That is 
more than 23 million children and teenagers. We must 
intentionally reverse the epidemic of childhood obesity or our 
families, communities, our States and our Nation will face a 
future of deteriorating health, lower worker productivity, and 
increasing need for social services and healthcare support.
    How did we get to this point? There is no easy answer. 
There is no single answer. We know that the current food 
environment is not conducive to healthy eating. Few children 
eat the recommended amount of fruits and vegetables, and 
children today eat too much fat, sugar and calories. We also 
know that children are not as physically active either in 
school or outside of school.
    To address the obesity epidemic, we must change the 
environment for our children. We need to remove the barriers to 
make sure that the healthy choice is the easy choice. This can 
only be done with the engagement of parents, schools, 
communities, industry, government and the media. We know that 
it is an individual's decision what and how much to eat and how 
much physical activity they get. But individual behavior change 
can only occur in a supportive environment with accessible and 
affordable healthy food choices and opportunities for regular 
physical activity.
    I wanted to briefly highlight three areas in the 
environment that play a critical role for children: 
communities, schools and childcare.
    First, the community environment. Many of our communities 
do not provide access to healthy, affordable food or have parks 
or safe places for children to play. Too often, people have to 
rely on convenience or corner stores that offer few healthy 
foods and at higher prices because they don't have access to 
full service grocery stores.
    Research shows that greater access to supermarkets may be 
related to a reduced risk for obesity. There is now a movement 
across many States and communities to offer incentives to 
attract full service supermarkets back into lower income urban 
and rural communities. This initiative was recently backed by 
the Institute of Medicine. Whatever Congress can do to further 
these efforts is worth pursuing.
    The second area is the school environment. Recent research, 
and we have plenty of it, shows that our school environments 
are not as healthy as they could or should be. In fact, kids 
have wide access to junk food and soda throughout the school 
day in cafeterias, vending machines and school stores, and less 
than 5 percent of elementary schools are providing students 
with daily physical activity.
    Senator Klobuchar, you have been such a great leader in the 
area of improving the school environment, from supporting 
efforts to get rid of junk food in schools, to helping 
strengthen local school district wellness policies. These 
efforts are critical to changing the school environment to make 
the healthy choice the easy choice, in fact, the default 
choice, and to promote the short and long term health of our 
children.
    It is a similar situation in childcare facilities. You 
mentioned the staggering statistic that one in four preschool 
children today is already obese or overweight. USDA's Child and 
Adult Care Food Program serves more than 3 million children in 
childcare centers and childcare homes. Congress can improve the 
nutritional quality of meals and snacks in the program by 
having stronger nutrition standards in line with the dietary 
guidelines for Americans, such as serving low fat milk, 
restricting fried foods and sugared beverages, and providing a 
healthier food environment.
    We know you have a particular interest in this area, and we 
appreciate your leadership in making sure that children get a 
healthy start in life.
    In closing, I would like to say that we need health in all 
policies approach, transportation policies, climate change 
legislation, child nutrition programs, the stimulus package, 
and of course health reform. All of these need to be viewed 
through the lens of health, especially children's health.
    Thank you for the opportunity to address the subcommittee 
on this important issue.
    [The prepared statement of Ms. Story follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Senator Klobuchar. Thank you very much.
    Dr. Ewing.

  STATEMENT OF REID EWING, PROFESSOR, DEPARTMENT OF CITY AND 
           METROPOLITAN PLANNING, UNIVERSITY OF UTAH

    Mr. Ewing. Thank you, Madam Chairman.
    I am going to deviate from my written testimony pretty 
substantially.
    Senator Klobuchar. We always like surprises here.
    [Laughter.]
    Mr. Ewing. OK. Well, I don't know how surprising it will 
be, but rather than talking about evidence-based research, 
which was the centerpiece of my written testimony, I am going 
to briefly mention that and then go on to things Congress can 
do to solve the problem.
    Senator Klobuchar. That is good.
    Mr. Ewing. So the evidence linking the built environment, 
the design of communities, to public health is pretty 
compelling. One of the most heavily researched subjects in my 
field, urban planning, is the effect of the D variables, 
density and diversity of land uses and design of streets, the 
effect of that on people's travel choices. And that literature 
is pretty hard to criticize. It is strong.
    There is some literature as well, although less, that says 
that these compact walkable communities increase people's 
overall levels of physical activity, including walking and 
other forms of physical activity. And there is even some 
literature, and this is the weakest of the three, that says 
that people living in these walkable communities tend to weigh 
less than comparable individuals living in suburban sprawl. 
That is literature that only goes back about 5 or 6 years, but 
studies have been pretty consistent in finding that.
    So we now know with some certainty that there is a link 
between the way we design our urban areas and the health of 
adults. There is a little less literature on children, but one 
can extrapolate, I think, with some assurance.
    So my own work, I have looked at children's decision to 
walk to school and found that it is very much related to the 
distance. It argues for neighborhood schools, as opposed to 
large schools drawing from much larger areas. I have also found 
that sidewalks on the major roads leading to school will 
increase the likelihood of children actually walking, rather 
than being driven.
    I guess I did the first study linking obesity to urban 
sprawl, obesity in children, and found that children living in 
compact walkable areas are less likely to be obese than those 
living in, again, a sprawling suburb. So that is the evidence.
    Now, what to do about the problem? You have a number of 
bills already introduced. One would continue funding of the 
Safe Routes to School Program. It is S. 1156. It was introduced 
by Senators Harkin, Burr, Sanders, Merkley and Collins, I 
believe. And it would continue a program that began in 2005 to 
provide moneys for sidewalk improvements, for bikeways, for 
traffic calming along access roads to school. So that is before 
you and certainly worth considering.
    A second piece of legislation, Senate Bill 584, is called 
the Complete Streets Act of 2009. All federally funded roads, 
were this to pass, would be required to accommodate all users, 
not just motor vehicles, but pedestrians and transit users and 
bicyclists as well. Oregon has been doing this since 1971, and 
it is one of the reasons why they have such great bike 
facilities and such great pedestrian facilities.
    The third bill is probably the most sweeping. It is related 
to climate, and your committee will have partial jurisdiction 
over it. It was introduced by Senators Carper and Specter, and 
it is called the Clean Low Emissions Affordable Transportation 
Act of 2009. Ten percent of the funds from the auctioning of 
carbon emissions allowances would go into a pot, and that pot 
would fund low emission transportation improvements like 
bikeways and sidewalks.
    In addition, States and large metropolitan areas would be 
required for the first time to develop transportation 
greenhouse gas reduction plans as part of their long range 
transportation planning. And smaller metropolitan planning 
organizations could qualify for those funds if they chose to 
prepare plans.
    So these three pieces of legislation would all lead to the 
kinds of infrastructure improvements that might make our 
society more active and children in particular.
    Thank you very much.
    [The prepared statement of Mr. Ewing follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
       
    Senator Klobuchar. Thank you very much, Dr. Ewing.
    I think we will turn to Senator Merkley. I now know why he 
is such a bike rider, given Oregon's emphasis. I have seen him 
bike ride. We have gone bike riding together, but I will say 
that Senator Mark Warner put us to shame. His bike didn't have 
a basket on it, remember?
    [Laughter.]
    Senator Klobuchar. But I will say that I have been out in 
Oregon myself. I know that they have amazing bike opportunities 
out there.
    So, Senator Merkley.
    Senator Merkley. I think it is Oregon in competition with 
Minnesota and the lake system.
    Thank you very much for your testimony.
    Dr. Story, you talked about several different factors. And 
I wanted to know if when changes have been made in the school 
setting whether follow up studies have shown any significant 
results? I believe that some schools have significantly changed 
the structure of their lunch offerings from high corn syrup 
frozen food to much healthier lunches. Others have removed junk 
food from vending machines. Others have eliminated specific 
choices such as soda drinks or candy bars.
    Do we have any kind of follow up studies that show whether 
these changes at the school level make an impact?
    Ms. Story. Yes, we do. And we, through our Healthy Eating 
Research Program from the Robert Wood Johnson Foundation, we 
funded several of the studies that have really tried looking at 
evaluating district and States that have actually removed the 
junk foods from the schools. And they have shown that when you 
reduce the soft drinks in schools, kids don't make up. They 
don't just drink more away from school; that it really does 
reduce their caloric intake, and the same with other, you know, 
of the other unhealthier food. So removing those, changing the 
school environment really does help improve the overall caloric 
intake.
    Some of the concerns that I have been hearing about lately 
is with the school wellness policies or schools that have 
policies to take out the foods from the vending machines and 
school stores. Some schools now are still having fundraisers, 
so that they are selling soft drinks and these really unhealthy 
foods during the school day at school events. So we really need 
to have much stronger policies in the schools.
    And the school wellness policies, which was a mandate in 
the last Child Nutrition Reauthorization that said that every 
school district had to have a school wellness policy, those are 
not being implemented as planned. So we really have to 
strengthen the local school wellness policies to really be able 
to implement stronger nutrition standards.
    Senator Merkley. I saw an article somewhere this past year 
that was related to activity in schools, and it had two 
features. One was that the increased activity was related to 
being a better fit with grade school children and their need to 
move around. And so they were actually replacing some sit-down 
desks with stand-up desks, and then providing more often kind 
of break times, maybe 5 minutes an hour where everybody 
stretches or has a little activity around the room. They were 
finding better academic results concentration, but also kids 
were burning more calories.
    Is there research on that? This was an interesting article, 
but is there research yet on that type of changes in elementary 
schools as it might impact obesity or also impact academic 
performance?
    Ms. Story. There is much more research now. I don't know 
with taking the desks out of school, but just having----
    Senator Merkley. Not the desk, but the chairs.
    Ms. Story. The chairs. But there is research from the 
University of Kansas that showed that just increasing the 
amount of recess that children get and physical activity is 
related to higher performance on, you know, academic 
performance and learning. And it makes sense. I mean, if you 
are sitting all day, kids can't learn. So there really is 
research now that really shows that link with physical 
activity.
    And recess in many schools now has really been engineered 
out of the school day, or else we were just talking before this 
where it might be at the very end of the school day, a 20-
minute recess which really makes no sense, but we have seen 
schools that have not had any recess.
    Senator Merkley. Thank you.
    And Dr. Ewing, thank you for your research on the community 
impact. This is something that Portland and other cities in 
Oregon have been paying a lot of attention to and trying to 
increase the likelihood that kids will walk to school, have 
safe routes so parents feel comfortable allowing them to do so, 
and certainly to ride bikes more.
    Are there any kind of really new developments in this 
research?
    Mr. Ewing. Developments? Well, there is a lot of research. 
I guess the best development was the decision by the Robert 
Wood Johnson Foundation to start funding this kind of research, 
and it has led to a plethora of studies. There were no studies 
of the effect of community design, density of population and 
diversity of land use mixes prior to 2003, and now there are 
something like 20, many funded by the Foundation. So that is a 
big development.
    Also, I could make available to your committee three 
literature reviews. I didn't write them, but became aware of 
them. And it is possible that your staff wouldn't be aware of 
them. They are good. They basically make the points we have 
been making up here.
    Now, the side of the energy equation I am interested in is 
physical activity, and you (Ms. Story) are on the other side of 
that equation with diet and caloric intake. And we could 
probably both provide you with some very good literature 
reviews.
    Senator Merkley. Thank you. I appreciate your testimony.
    Mr. Ewing. You are welcome.
    Senator Klobuchar. Thank you very much.
    I think, Dr. Story, the thing I was most struck by in your 
testimony when you said 5 percent of elementary schools have 
physical education. Do you want to talk about that? Do you mean 
that they don't have recess, or they don't have gym time? Or 
are you bulking them together?
    Ms. Story. That is 5 percent, it is actually 3.8 percent of 
elementary schools that have daily physical education.
    Senator Klobuchar. So it is daily. Exactly. And I my 
daughter was at one school that was 90 percent free and reduced 
lunch, where the teachers did an incredible job trying to work 
hard and get these kids up to speed, but they didn't really 
have any place to go. And so I saw first-hand the difference 
when she went to a bigger school, a middle school where they 
had gym every single day.
    And when they had health, which was about a third of the 
year, and that is when they stopped doing gym, they actually 
had them wear pedometers every day. And at the end of the day, 
she would be running in place in our little apartment in 
Virginia to try to get her steps in. And that is a vast 
difference in what I have seen at some schools everywhere in 
this country, where they say, well, you just have gym for a 
third of the year or a fourth of the year. And that is a real 
problem because then they are not getting that daily physical 
education that you are talking about.
    So one thing that I wanted to ask about as well is that you 
were talking about the changing world here where families 
aren't getting nutritious food. And I know that because of 
economics, because of just time constraints, many of them, as 
you point out, are going to convenience stores or going to fast 
food places.
    Could you talk about how this changing environment has 
influenced the health of our children?
    Ms. Story. Research has shown that, like in low income 
communities and in rural communities, there is less grocery 
stores. And even, as an example, in our home State, North 
Minneapolis, which is one of the poorest neighborhoods in 
Minneapolis, there are 68,000 residents and two grocery stores. 
One was just recently, they have an ALDI's and a Cub. Many 
other places, there is a grocery store in many suburbs, one for 
every 10,000 residents.
    So in the last 10 years, grocery stores, large supermarkets 
have moved out of low income areas. And the research really has 
shown the last 2 years that if you are relying mainly on 
convenience stores, that you are more likely to be overweight, 
and bringing in a new grocery store or bringing a kind of full 
service grocery stores may be related to this reduction in 
obesity.
    So many communities now are starting to look at ways to 
bring in healthy foods such as fruits and vegetables, which 
often are nonexistent in convenience and grocery stores. And we 
have seen families who have to get their food out of a gas 
station or drug store, where it is really expensive.
    So that is where I think the environment is so critical. 
You can't tell people to eat healthy when they don't have 
access to healthy foods in their neighborhood.
    Senator Klobuchar. I would agree that there is a low income 
aspect of this that is very difficult. But also, I think that 
time constraints for all families with kids, because I can tell 
you I have bought a few meals in gas stations.
    So my question is, one of the things we are looking at in 
the healthcare bill is putting at least calories, having them 
more accessible at restaurants and at fast food places. So at 
least you know, because as you know, a number of them offer 
some low calorie options. They are, and it is great, but 
people, you can't really tell how many calories are in each 
thing sometimes, and sometimes when you ask, they give you this 
huge book and it is really embarrassing. Like you go, oh, could 
I see your calories? And I am sure you need that for background 
if you are looking for certain nutrients and things.
    But what we are trying to work on is that there is some way 
to do it, just for at least the calories, to make it easier, 
and they do that at some chain restaurants already. But could 
you comment on that?
    Ms. Story. Right now, 50 percent of the food dollar, 50 
percent of the food dollar is spent eating out in the United 
States. And much of it now, too, is the fast food restaurants. 
And for families that are really stretched for time, you know, 
the dollar menus, you know, it is just really appealing.
    And so to have the calories labeled in the restaurants, and 
right now there are several, well, in Oregon or at least in 
Multnomah County, and Seattle, King County, Philadelphia, New 
York City, California, all have passed labeling laws for 
labeling calories.
    In the healthcare reform, we are hoping that there will be 
the passage so that all chain restaurants, and this is 
restaurants with more than probably 15 restaurants, would be 
able to have the calories labeled. And it has been, we have 
really funded some research that really has shown that it 
really, people do choose less calories. People have no idea how 
much calories are in food. Even studies that they have done 
with registered dietitians and asking them to estimate the 
amount of calories in food, it is really hard to estimate.
    It has only been since 1993 that we have had nutrition 
facts on the back of packages, and now it is really hard to 
imagine the time when you couldn't look on the back of a food 
package and really see the calories that were in that serving. 
And I think because 50 percent of the food dollar is spent 
eating out, we need to have the same kind of disclosure, the 
same information for consumers to make wise choices.
    Senator Klobuchar. OK, thank you very much. Just one last 
question for you. In your testimony, you talked about several 
agencies, HHS, EPA, Department of Agriculture, that currently 
are working to combat the child obesity issue. Do you think 
there is enough communication across these agencies?
    Ms. Story. No, I don't, and I think that a recommendation 
would be that the agencies really form an Obesity Task Force 
and really work together.
    Senator Klobuchar. Thank you. Now, I know you have a plane 
to catch, Dr. Story, and if you want to leave a little earlier, 
I am just going to have a few questions of Dr. Ewing. So I know 
you have to get back to Minnesota, which I know everyone would 
like to do right now. So thank you very much.
    Ms. Story. Thank you.
    Senator Klobuchar. Dr. Ewing, I was thinking of what you 
said about the accessibility of paths and walking paths, bike 
paths. For a while, when we moved out here, we were in an 
apartment in a very heavy density area, it will go unnamed, 
where literally you couldn't take a walk because there were so 
many lights and it wasn't timed in any way. And I couldn't 
believe the difference that made for our family taking walks, 
versus now we are renting a house in a neighborhood, and it is 
easier to do. And there are sidewalks, and it is just easier to 
take walks or to go on a bike ride or something like that.
    And so you talked about these ideas for legislation. Do you 
want to just talk about the history of this? Have there been 
improvements in this country? You know, you mentioned certain 
States that have done a better job of it. And are there links 
that we see between healthier families, lower obesity rates, 
and this kind of accessibility to paths for walking and 
bicycling?
    Mr. Ewing. I don't know of any work at that geography. 
Colorado has the fewest overweight adults, as it turns out, and 
they have for ever so long. And Mississippi, as I recall, has 
the most as a percentage of their adult population, the problem 
is there are so many confounding factors that would cause 
Colorado to have low rates of obesity in adults and Mississippi 
have high rates.
    So most of the research we do at this point is at the scale 
of the individual. You will find a large number of individuals 
using a national data base, and we have weight and height 
information for them from which we can determine whether they 
are obese or not or what their body mass index is. And then we 
look at the area they live in, a small area, a quarter-mile 
around their house, or maybe the county they live in. And it is 
at that level that most of the research has been done simply 
because you can then say with greater certainty that one thing 
is causing another, that it is bike paths and sidewalks that 
are causing kids to walk to school, as my research showed.
    So there are leading States. Oregon is incredible in all 
the things they have done. I mentioned them earlier in my 
testimony. I guess I am most impressed with the State of Oregon 
and the requirements that have been handed down to regional 
entities and metropolitan planning organizations there in 
Portland Metro.
    They have not only pushed for bike paths and sidewalks, but 
they have also tried to keep blocks short, and short blocks are 
a very important determinant of walking. And they have tried to 
increase densities, and they have shops within walking distance 
of homes. And they have drawn an urban growth boundary around 
all of Portland, which has made all this happen.
    So the model, and it is really very much in the climate 
bill I mentioned before, is California to a degree. Some of the 
planning they are doing now for climate change, and Oregon and 
Washington State is another leader.
    Senator Klobuchar. You know, one of the things I notice is 
that when kids have to walk, say, miles, in a mile zone, that 
makes a big difference. And if they are all walking, to me as a 
parent, it feels safer because you have a bunch of kids walking 
at the same time, but obviously that safety concern is always 
there.
    I saw an article a few months ago about, it might have been 
in Europe, where they were basically doing a walking bus with 
elementary kids, which I think is actually cheaper to have 
someone who would have been the bus driver, who would have been 
driving the bus, who is maybe walking like 2 miles with these 
kids, and goes to the corner and they have to be there, and 
then they are walking this whole group, and suddenly you have 
25 kids walking together with someone in charge. Is that going 
on anywhere in the United States?
    Mr. Ewing. I believe it is. I have seen photos of walking 
school buses, of all the little kids tagging along. I can't 
tell you where it is done. My area of expertise is urban 
planning, but from the reading I have done in this particular 
literature, I think that there are places that have been 
promoting walking school buses, and walk your kid to school 
days have been pretty common.
    And perhaps you can help with that, too.
    Ms. Story. Yes, we could. Jim Seles directs the active 
living research, which is the counterpart to the RWJF Healthy 
Eating Research, and I can contact him and get information for 
you on the walking school buses and the studies that have 
really been done around that.
    Senator Klobuchar. Thank you.
    Most of my questions of you, Dr. Ewing, were about Federal 
policy, and you really answered most of those in your opening 
statement, which I appreciate, having some of your ideas on how 
we can advance this on the Federal level, in addition to the 
local level.
    So I wanted to thank both of you here. I think we have a 
big job in front of us. I think we have an Administration that 
is very focused on this issue, from the First Lady planting the 
healthy garden on down to all of their weight lifting and 
various healthy activities, and strong arms and things like 
that. We really haven't had that kind of focus. I think that is 
good.
    But I also think that we need to do things in terms of 
actually putting incentives into law. And for me, we start with 
this school nutrition bill, which will send a clear message 
when you look at kids getting 30 to 50 percent of their 
calories in school, so they really aren't given a choice. They 
aren't given a bad choice, just don't give it to them, and 
that's just how it is.
    I think the second piece of this is recess and exercise, 
and whether or not that is more encouraged on the local or 
State level is something that we have to look at as we look at 
the reauthorization of No Child Left Behind, or as they call it 
in my State, Leave the Money Behind. But you know, the hope is 
to try to make some changes here on the State and Federal level 
and get out that message about exercise in the schools that has 
got to be a key piece of this.
    The third would be as we look at environmental policies and 
urban planning policies, and tying resources to making sure you 
have those exercise options available. And the fourth, and 
probably the most pertinent for what we are doing right now, is 
the healthcare reform debate. We know that Safeway reduced the 
expenses for their healthcare by 13 percent by aggressive 
wellness policies with families and tying premiums to 
exercising and things like that. So, what can we do in terms of 
making sure we put those incentives in place with health care 
so that we have them?
    And I would say the last thing is what we started with here 
with our first panel is just looking at these environmentally 
related diseases outside of obesity and outside of some of the 
things we just talked about with our panel, and that is autism 
and asthma and some of the things that we have been seeing on 
the rise with kids. And we are making sure we are pushing with 
the agencies to come up with the causes, and then hopefully the 
solution as we see more and more parents struggle with it.
    And I am sure there is overlap between some of these, you 
would argue, with obesity and some of these other diseases. We 
just don't want this to be the step-child of all this, but it 
is getting overlooked as we look at healthcare reform, because 
I just see it as something we have not been paying enough 
attention to.
    I still remember when Paul Wellstone ran for office, and he 
had a T.V. commercial that ran in Minnesota where he had kids 
in highchairs trying to write checks. And basically the theme 
was these kids don't have a lobbying arm. They don't have the 
kind of access to Washington that other groups do. And that is 
what we have to remember as we go forward with the healthcare 
and environmental policy.
    So I want to thank you all for taking the time to testify. 
As I mentioned, this will be the first of many hearings and 
other legislation that we do in this area, and I am looking 
forward to working with all of you. Thank you.
    Ms. Story. Thank you.
    Senator Klobuchar. We will keep the record open for 2 weeks 
for the submission of material.
    The hearing is adjourned.
    [Whereupon, at 10:58 a.m. the subcommittee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    As a father and grandfather, protecting the health of 
children--born and unborn--is a personal priority. I believe 
the best way to protect children's health is to use the best 
available science to properly assess risk. Moreover, in 
addition to valuing and protecting pregnant women the science 
should specifically value and protect the well-being of unborn 
children.
    Current science reflects that in some cases children can be 
more susceptible, in other cases less susceptible, and in some 
cases equally susceptible to environmental exposures when 
compared to adults. On a body weight basis children can have 
greater exposure than adults. EPA takes this susceptibility to 
exposure differential into account when EPA assesses potential 
risks to children.
    Despite what some allege, children are not always at 
greater risk from carcinogenic compounds than adults. In some 
instances children can have a greater susceptibility, but in 
other instances they are much more resistant. EPA's current 
risk assessment methods are highly protective and are designed 
to protect all individuals, including children and other 
subpopulations, over their entire lifespan.
    As we hear from the witnesses today it is also important to 
understand that the major threats to children are not based on 
environmental exposures. Rather, most threats to children are a 
function of behavior and lifestyle and are largely preventable:
     Statistics from the Centers for Disease Control show that 
unintentional injuries--nearly half of which are motor vehicle 
accidents--continue to be the leading cause of death for 
children aged 1-14. Nearly all of these accidents are 
preventable.
     CDC statistics show that for children under 1 year of 
age, the number of deaths has decreased by nearly 40 percent 
since 1980. The leading cause of death in children under 1 year 
continues to be congenital abnormalities, and the proportion of 
deaths attributable to such conditions has remained constant at 
about 20 percent despite changes in environmental exposures. 
Other major factors in mortality of children under 1 year of 
age include disorders related to short gestation and low birth 
weight, sudden infant death syndrome, and maternal factors such 
as smoking, alcohol consumption, and injury.
     In 2004, the National Institute of Medicine's Board on 
Children, Youth, and Families noted that issues related to 
metabolic syndromes are increasing rapidly. For example, the 
Federal Interagency Forum on Child and Family Statistics 
recently noted that the proportion of children ages 6-17 who 
were overweight or obese tripled from 1976 to 2004.
    I look forward to hearing perspectives on how the Federal 
Government can strengthen protections for children from 
environmental exposures. I also hope to hear from EPA and the 
researchers on what efforts are being made to specifically 
value and protect the health and well-being of unborn children.

                                 [all]
</pre></body></html>
